No. 19-__________
IN THE SUPREME COURT OF THE UNITED STATES
CHARLES M. HALLINAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
________________
APPLICATION TO THE HONORABLE SAMUEL A. ALITO, JR. FOR
EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE COURT OF APPEALS FOR THE THIRD CIRCUIT
________________
Pursuant to 28 U.S.C. § 2101(d) and Supreme Court Rule 13.5, Applicant
Charles M. Hallinan hereby moves for an extension of time of 59 days, up to and
including April 1, 2020, for the filing of a petition for writ of certiorari. In support of
this request, Applicant offers the following:
1.

This Court has jurisdiction to grant this application under 28 U.S.C.

§ 1254(1).
2.

Petitioner will seek review of the decision of the Court of Appeals for the

Third Circuit in United States v. Hallinan, No. 18-2539, which was issued on
September 6, 2019. A copy of the court’s non-precedential opinion is attached hereto
as Exhibit A.

The Third Circuit denied Applicant’s petition for rehearing on

November 5, 2019. A copy of the court’s order is attached hereto as Exhibit B.

3.

Absent an extension, Applicant’s petition for writ of certiorari would be

due on February 3, 2020. This application is being filed more than ten days before
that date.
4.

Applicant was convicted of conspiring to collect unlawful debts in

violation of the Racketeer Influenced and Corrupt Organizations Act (RICO), wire
fraud, and related charges. The Government invoked two theories of prosecution:
(1) Mr. Hallinan collected high interest payday loans that exceeded State usury laws
and his agreements with Native American Tribes under the Tribes’ sovereign
immunity did not insulate him from those State laws; and (2) Applicant’s alleged
misleading statements made during the course of a civil class action constituted wire
fraud because it caused plaintiffs to settle the case for a lower amount and thereby
defrauded plaintiffs out of their right to sue. Applicant, a 78 year-old man, was
convicted on November 27, 2017, and sentenced to 168 months’ in prison, an effective
death sentence.
5.

Applicant filed a timely appeal to the Third Circuit and raised two issues

relevant to his expected Petition: (1) the District Judge’s refusal to charge the jury
on willfulness for the RICO counts violated Petitioner’s constitutional right to due
process; and (2) the Government’s wire fraud theory was deficient because an
unvested cause of action is not traditionally recognized as money or property.
6.

A petition for writ of certiorari is essential in this case because Applicant

is serving a sentence that will likely last his entire life, and his petition will present
substantial, important, and recurring questions of federal constitutional law for

2

which there are conflicting opinions in the Court of Appeals and confusion in the
District Courts. Notably, contrary to the Third Circuit’s holding that a willfulness
instruction is not required for the collection of an unlawful debt under RICO, Courts
in the Second and Fifth Circuit have approved of a willfulness instruction for that
same charge, and such an instruction is required by this Court’s decision in United
States v. Liporata, 471 U.S. 419 (1985), among others. Moreover, contrary to the
Third Circuit’s decision upholding the government’s novel wire fraud theory that an
unvested cause of action is traditionally recognized as property, the Ninth and D.C.
Circuits have held that traditionally recognized property rights do not vest until a
judgment is issued, which would defeat the government’s theory of prosecution and
is compelled by this Court’s decision in Cleveland v. United States, 531 U.S. 12 (2000).
Applicant also notes that oral argument is currently scheduled to be held before this
Court in Kelly v. United States, No. 18-1059, which also considers the breadth of the
criminal wire fraud statute and will likely bear on Applicant’s petition.
7.

Undersigned counsel respectfully seeks this extension of time because

of the importance of the issues in this case, counsel’s obligations in other cases (which
include a trial that is set to begin on March 2, 2020, in the Eastern District of New
York), and the difficulty in communicating with Petitioner in prison. In addition,
Petitioner was diagnosed with two forms of aggressive cancer shortly before his
sentencing, has experienced other significant health issues, and has been receiving
treatment by the Bureau of Prisons, which further hinders timely communication.
8.

An extension of time will not prejudice Respondent.

3

Because good cause exists, Applicant respectfully requests that an extension
of time, up to and including April 1, 2020, be granted within which Applicant may
file a petition for writ of certiorari.

Respectfully Submitted,
/s Robert Smith
Robert T. Smith
Counsel of Record
Katten Muchin Rosenman LLP
2900 K Street NW
North Tower – Suite 200
Washington, DC 20007-5118
robert.smith1@katten.com
(202) 625-3616
Michael M. Rosensaft
Katten Muchin Rosenman LLP
575 Madison Avenue
New York, NY 10022
michael.rosensaft@katten.com
(212) 940-6631
Counsel for Applicant

4

